                   Fiscal Year 2004 Statutory Audit of
              Compliance With Legal Guidelines Prohibiting
               the Use of Illegal Tax Protester and Similar
                               Designations

                                     June 2004

                       Reference Number: 2004-40-109




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.




Redaction Legend:
1 = Tax Return/Return Information
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                        June 7, 2004


       MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                      ENFORCEMENT
                      DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


       FROM:                         Gordon C. Milbourn III
                                     Acting Deputy Inspector General for Audit

       SUBJECT:                      Final Audit Report - Fiscal Year 2004 Statutory Audit of
                                     Compliance With Legal Guidelines Prohibiting the Use of Illegal
                                     Tax Protester and Similar Designations (Audit # 200340053)


       This report presents the results of our review to determine if the Internal Revenue
       Service (IRS) complied with the IRS Restructuring and Reform Act of 1998 (RRA 98)1
       Section (§) 3707 and internal IRS guidelines that prohibit IRS officers and employees
       from referring to taxpayers as Illegal Tax Protesters (ITP) or any similar designations.
       Prior to enactment of the RRA 98, taxpayers were referred to the ITP Program when
       their tax returns or correspondence contained specific indicators of noncompliance with
       the tax law, such as the use of arguments that had been repeatedly rejected by the
       courts. Once a taxpayer’s account was coded as an ITP, certain tax enforcement
       actions were accelerated. The designation was also intended to alert IRS employees to
       be cautious so they would not be drawn into confrontations.
       RRA 98 § 3707 prohibits the IRS from referring to taxpayers as ITPs or any similar
       designations. The Treasury Inspector General for Tax Administration is required to
       annually evaluate the IRS’ compliance with the prohibition on the use of ITP or any
       similar designations.2




       1
         Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
       16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
       2
         Internal Revenue Code § 7803(d)(1)(A)(v)(2000).
                                                        2

The IRS has not reintroduced past ITP codes on the Master File,3 and formerly coded
ITP taxpayer accounts have not been assigned similar ITP designations. However, a
few taxpayers’ records were coded as tax protesters on the Taxpayer Information File
(TIF)4 and the Integrated Collection System (ICS)5 computer systems. In addition, the
IRS does not have any current publications with ITP references. While the IRS has
made some effort to remove ITP references from the various forms of the Internal
Revenue Manual (IRM), it did not ensure that all corrections were completed. As a
result, 103 ITP references still existed as of January 2004. In addition, three ITP
references were identified in the Job Aids.6
In addition, in isolated instances IRS employees continued to make references to
taxpayers as ITPs and other similar designations in case narratives. The IRS has taken
steps in directing its employees to prevent ITP and similar designations from appearing
in case narratives. However, in its response to our Fiscal Year 2003 report,7 the IRS
disagreed with our determination that to comply with this provision, IRS employees
should not designate taxpayers as ITPs or similar designations in case histories. As a
result, we elevated this disagreement to the Assistant Secretary for Management and
Chief Financial Officer of the Treasury, but have not yet received a response.
We recommended that the Chief Information Officer take the appropriate steps to
remove the tax protester coding from the TIF and the ICS and strengthen controls to
prevent these computer systems from accepting such coding. We also recommended
that the Commissioners, Small Business/Self-Employed (SB/SE) Division and Tax
Exempt and Government Entities (TE/GE) Division; the Chief, Agency-Wide Shared
Services; and the Chief Counsel take the necessary actions to ensure that the
remaining ITP references are promptly removed from all versions of the IRM and the
Job Aids. Since the IRS has taken interim action to deter employees from using ITP or
similar designations in case narratives and there is an outstanding question concerning
the legal interpretation of the RRA 98 § 3707, we believe that no further
recommendations are needed at this time.
Management’s Response: IRS management agreed with our recommendations. The
IRS will remove the instances of tax protester coding that currently reside on the TIF
and the ICS, and add new validation to prevent any additional entries. In addition, both
the SB/SE and TE/GE Divisions and the Chief, Agency-Wide Shared Services, have
taken actions to remove ITP references from all versions of the IRM and IRS Job Aids.
Chief Counsel has revised their Chief Counsel Directives Manual to remove all ITP



3
  The Master File is the IRS’ database that stores various types of taxpayer account information. This database
includes individual, business, and employee plans and exempt organizations data.
4
  The TIF provides tax account information for taxpayers selected for the Integrated Data Retrieval System.
5
  The ICS is a system used by Collection function employees to report taxpayer case time and activity.
6
  The Job Aids are the IRS approved information for nationwide use to guide and assist employees to perform their
job. This is a new area not reviewed during our prior ITP audits.
7
  Fiscal Year 2003 Statutory Audit of Compliance With Legal Guidelines Prohibiting the Use of Illegal Tax
Protester and Similar Designations (Reference Number 2003-40-098, dated April 2003).
                                          3

references; however, revisions are in the clearance process. Management’s complete
response to the draft report is included as Appendix VII.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.
             Fiscal Year 2004 Statutory Audit of Compliance With Legal Guidelines
              Prohibiting the Use of Illegal Tax Protester and Similar Designations




                                                  Table of Contents


Background ............................................................................................... Page 1
Illegal Tax Protester Codes Were Not Used on the
Master File but Were Identified on Other Computer Systems ................... Page 2
         Recommendation 1: ....................................................................... Page 2

Internal Revenue Service Publications Do Not Contain
Illegal Tax Protester References ............................................................... Page 3
The Internal Revenue Manual and Job Aids Contained Illegal Tax
Protester References................................................................................. Page 3
         Recommendation 2: ....................................................................... Page 4

Employees Used Illegal Tax Protester or Similar Designations
in Isolated Instances in Case Narratives ................................................... Page 5
Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 8
Appendix II – Major Contributors to This Report........................................ Page 12
Appendix III – Report Distribution List ....................................................... Page 13
Appendix IV – Outcome Measures ............................................................ Page 14
Appendix V – Use of Illegal Tax Protester and Similar Designations
in Case Narratives by Internal Revenue Service Employees
During Fiscal Years 2002, 2003, and 2004 ............................................... Page 16
Appendix VI – Examples of Illegal Tax Protester and Similar
Designations Found in Case Narratives .................................................... Page 17
Appendix VII – Management’s Response to the Draft Report ................... Page 19
         Fiscal Year 2004 Statutory Audit of Compliance With Legal Guidelines
          Prohibiting the Use of Illegal Tax Protester and Similar Designations

                                  The Internal Revenue Service (IRS) Restructuring and
Background
                                  Reform Act of 1998 (RRA 98)1 Section (§) 3707 prohibits
                                  the IRS from referring to taxpayers as Illegal Tax Protesters
                                  (ITP) or any similar designations. In addition, the RRA 98
                                  requires the removal of all existing ITP codes from the IRS’
                                  Master File2 and instructs IRS employees to disregard any
                                  such designation not located on the Individual Master File
                                  (IMF).3
                                  Prior to enactment of the RRA 98, taxpayers were referred
                                  to the ITP Program when their tax returns or correspondence
                                  contained specific indicators of noncompliance with the tax
                                  law, such as the use of arguments that had been repeatedly
                                  rejected by the courts. Once a taxpayer’s account was
                                  coded as an ITP, certain tax enforcement actions were
                                  accelerated. The designation was also intended to alert IRS
                                  employees to be cautious so they would not be drawn into
                                  confrontations.
                                  The Congress had concerns that some taxpayers were being
                                  permanently labeled and stigmatized by the ITP designation.
                                  Taxpayers who subsequently complied with the tax laws
                                  could continue to be labeled as ITPs, which could bias IRS
                                  employees and result in unfair treatment.
                                  Internal Revenue Code § 7803(d)(1)(A)(v)(2000) requires
                                  the Treasury Inspector General for Tax Administration to
                                  annually evaluate the IRS’ compliance with the prohibition
                                  against using ITP or any similar designations. This is our
                                  sixth review since Fiscal Year (FY) 1999. These reviews
                                  have identified areas for improvement to help the IRS
                                  comply with the ITP designation prohibition.
                                  This review was performed in the IRS National
                                  Headquarters in Washington, D.C., during the period
                                  August 2003 through March 2004. The audit was
                                  conducted in accordance with Government Auditing

                                  1
                                    Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
                                  sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C.,
                                  23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                  2
                                    The Master File is the IRS’ database that stores various types of
                                  taxpayer account information. This database includes individual,
                                  business, and employee plans and exempt organizations data.
                                  3
                                    The IMF is the IRS database that maintains transactions or records of
                                  individual tax accounts.
                                                                                                   Page 1
            Fiscal Year 2004 Statutory Audit of Compliance With Legal Guidelines
             Prohibiting the Use of Illegal Tax Protester and Similar Designations

                                     Standards. Detailed information on our audit objective,
                                     scope, and methodology is presented in Appendix I. Major
                                     contributors to the report are listed in Appendix II.
                                     In prior reviews, we reported that the IRS had removed the
Illegal Tax Protester Codes Were
                                     ITP codes from the Master File as required by the
Not Used on the Master File but
                                     RRA 98 § 3707. The ITP designation has not been
Were Identified on Other
                                     reintroduced on the Master File.
Computer Systems
                                     The RRA 98 § 3707 also prohibits using any designation
                                     similar to the ITP. A review of the approximately
                                     57,000 taxpayer accounts formerly coded as ITPs on the
                                     Master File identified no reassignments of these taxpayer
                                     accounts to any other Master File designations.
                                     In addition to the Master File, the IRS uses other computer
                                     inventory systems to manage taxpayer cases. This year we
                                     reviewed approximately 24.7 million taxpayer accounts on
                                     the Taxpayer Information File (TIF),4 identifying
                                     47 taxpayer records that contained codes designating them
                                     as tax protesters. Additionally, a review of approximately
                                     1.5 million Integrated Collection System (ICS)5 taxpayer
                                     accounts disclosed another 26 taxpayers accounts that were
                                     coded as tax protesters.
                                     IRS officials informed us that these tax protester codes had
                                     been input during the last 18 months but could not
                                     determine why the codes had been input. In addition, these
                                     codes were not visible to employees researching ICS.
                                     Although the RRA 98 did not specifically require the
                                     removal of tax protester codes on these computer systems,
                                     the use of such coding, based on the language of the statute,
                                     would appear to be contrary to the intent of the Congress.

                                     Recommendation

                                     1. The Chief Information Officer should take the
                                        appropriate steps to remove the tax protester coding


                                     4
                                       The TIF provides tax account information for taxpayers selected for
                                     the Integrated Data Retrieval System (the IRS computer system capable
                                     of retrieving or updating stored information; it works in conjunction
                                     with a taxpayer’s account records).
                                     5
                                       The ICS is a system used by Collection function employees to report
                                     taxpayer case time and activity.
                                                                                                   Page 2
           Fiscal Year 2004 Statutory Audit of Compliance With Legal Guidelines
            Prohibiting the Use of Illegal Tax Protester and Similar Designations

                                        from the TIF and the ICS, and strengthen controls to
                                        prevent these computer systems from accepting such
                                        coding.
                                    Management’s Response: IRS management will remove the
                                    instances of tax protester coding that currently reside on the
                                    TIF and the ICS and add new validation to prevent any
                                    additional entries.
                                    To help promote compliance with the RRA 98 § 3707, IRS
Internal Revenue Service
                                    management issued directives for employees to update
Publications Do Not Contain
                                    various publications to eliminate references to ITP
Illegal Tax Protester References
                                    terminology and programs. A review of IRS publications
                                    identified no ITP references. The IRS has labeled those
                                    publications with ITP references identified in our previous
                                    reviews as obsolete.
                                    During each of the five prior reviews, we identified multiple
The Internal Revenue Manual
                                    subsections throughout the various forms of the Internal
and Job Aids Contained Illegal
                                    Revenue Manual (IRM)6 that contained ITP references. In
Tax Protester References
                                    August 2002, the IRS responded to our FY 2002 report
                                    stating that each IRS function responsible for manual
                                    updates would delete these references from the IRM. There
                                    were a total of 144 of these references7 throughout the
                                    various forms of the IRM as of March 2002. Although
                                    according to the IRS, this corrective action was completed
                                    in April 2003, many of these references still exist.
                                    While the IRS has made some effort to remove ITP
                                    references from the various forms of the IRM, it did not
                                    ensure that all corrections were completed. As a result,
                                    103 ITP references still existed as of January 2004, with the
                                    majority of them found in the Chief Counsel’s portions of
                                    the IRM. In addition, we identified 3 ITP references in the
                                    IRS Job Aids.8 The existence of ITP references in the IRM

                                    6
                                      The IRM is found in various locations on the IRS Intranet, such as
                                    IRM online, the Servicewide Electronic Research Program, and the IRS
                                    Publishing web site. It is also found on the IRS public web site, as well
                                    as on paper and CD-ROM.
                                    7
                                      This is a cumulative total of the number of ITP references found
                                    throughout the various forms of the IRM. It is not a unique count of the
                                    actual individual references.
                                    8
                                      The Job Aids are the IRS approved information for nationwide use to
                                    guide and assist employees in performing their jobs. This is a new area
                                    not reviewed during our prior ITP audits.
                                                                                                     Page 3
Fiscal Year 2004 Statutory Audit of Compliance With Legal Guidelines
 Prohibiting the Use of Illegal Tax Protester and Similar Designations

                         and the Job Aids may encourage IRS employees to
                         improperly label taxpayers.
                         The following chart compares the number of unique ITP
                         references in the IRM and the Job Aids identified during our
                         FY 2004 review.
                         Comparison of Unique Illegal Tax Protester References in the IRM
                                         and Job Aids by IRS Function

                                                                Unique Count of ITP
                                 IRS Function                 References in the IRM and
                                                                      Job Aids
                                 Chief Counsel                                19
                                 Small Business/                               3
                             Self-Employed Division
                               Tax Exempt and                                  1
                              Government Entities
                                   Division
                              Agency-Wide Shared                               1
                                   Services
                         Source: Current versions of the IRM and Job Aids.

                         In responding to our FY 2002 report,9 the IRS stated that the
                         IRS functions were to delete these references from their
                         portions of the IRM. In addition, the Office of Servicewide
                         Policy, Directives, and Electronic Research was to continue
                         to manage the Internal Management Documents process by
                         coordinating requests from the Multimedia Publishing
                         Division to search the various IRM files for ITP references.
                         We did not find any evidence that these searches were
                         conducted.

                         Recommendation

                         2. The Commissioners, Small Business/Self-Employed
                            (SB/SE) Division and Tax Exempt and Government
                            Entities (TE/GE) Division; the Chief, Agency-Wide

                         9
                          Efforts Are Still Needed to Discourage the Use of Illegal Tax Protester
                         and Similar Designations (Reference Number 2002-40-162, dated
                         September 2002).
                                                                                         Page 4
           Fiscal Year 2004 Statutory Audit of Compliance With Legal Guidelines
            Prohibiting the Use of Illegal Tax Protester and Similar Designations

                                         Shared Services; and the Chief Counsel should take the
                                         necessary actions to ensure that the remaining ITP
                                         references are promptly removed from all versions of
                                         the IRM and IRS Job Aids.
                                    Management’s Response: The SB/SE and TE/GE Divisions
                                    and the Chief, Agency-Wide Shared Services, have taken
                                    actions to remove ITP references from all versions of the
                                    IRM and IRS Job Aids. Chief Counsel has revised their
                                    Chief Counsel Directives Manual to remove all ITP
                                    references; however, revisions are in the clearance process.
                                    Our FY 2004 review of a sample of computer systems and
Employees Used Illegal Tax
                                    paper files used by IRS employees to document case activity
Protester or Similar
                                    identified 233 isolated instances where 206 employees
Designations in Isolated
                                    designated taxpayers as “tax protesters,” “ITPs,”
Instances in Case Narratives
                                    “constitutionally challenged,” or other similar designations.
                                    These actions are prohibited by the RRA 98 § 3707.
                                    Employees are allowed to document any statements made
                                    by a taxpayer or their representatives. Quoting a taxpayer’s
                                    self-designation as an ITP is not prohibited by the
                                    RRA 98 § 3707. However, examples of inappropriate IRS
                                    employee comments can be found in Appendix VI, and a
                                    breakdown of where comments were made can be found in
                                    Appendix V.
                                    The IRS has taken steps in directing its employees to
                                    prevent ITP and similar designations from appearing in case
                                    narratives. On October 11, 2002, the IRS issued a
                                    Servicewide Electronic Research Program (SERP)10 alert11
                                    reminding employees of the prohibition regarding the use of
                                    ITP or any similar designations. Business and functional
                                    units independently continue to take additional steps to
                                    address this issue. These included sending out additional
                                    guidance in the form of SERP alerts, e-mail alerts and
                                    memorandums, updating training, conducting quality
                                    reviews for ITP usage, and counseling employees that



                                    10
                                       The SERP is an electronic researching tool containing many former
                                    paper research applications (e.g., Publications, IRM, Probe and
                                    Response Guide, etc.).
                                    11
                                       Only those employees that use the SERP would have access to this
                                    alert.
                                                                                                   Page 5
Fiscal Year 2004 Statutory Audit of Compliance With Legal Guidelines
 Prohibiting the Use of Illegal Tax Protester and Similar Designations

                         continued to designate taxpayers as ITPs or other similar
                         designations.
                         However, in its response to our FY 2003 report, the IRS
                         disagreed with our determination that in order to comply
                         with this provision, IRS employees should not designate
                         taxpayers as ITPs or similar designations in case narratives.
                         As a result, we elevated this disagreement to the Assistant
                         Secretary for Management and Chief Financial Officer of
                         the Treasury, but have not yet received a response.
                         We believe that it is reasonable to conclude, based upon the
                         language of the statute, that IRS officers and employees
                         should not label taxpayers as ITPs or similar designations in
                         any IRS records, which includes paper and electronic case
                         files. We agree with the IRS that merely making references
                         to taxpayers’ actions (e.g., indicating the type of document
                         the taxpayer files or that the taxpayer files letters containing
                         typical protester language) does not constitute a designation
                         prohibited by this statutory provision. IRS officers and
                         employees should not, however, designate taxpayers as ITPs
                         or similar designations because such a designation alone
                         contains a negative connotation and appears to label the
                         taxpayer.
                         In isolated instances, employees referred to taxpayers using
                         ITP designations in case narratives on the following IRS
                         computer inventory management systems and paper case
                         files:
                              •   Automated Collection System (ACS):12 A review of
                                  approximately 2.5 million open ACS records
                                  identified 44 cases in which 41 employees used ITP
                                  or similar designations when referring to specific
                                  taxpayers in their case narratives.
                              •   Criminal Investigation Management Information
                                  System (CIMIS):13 A review of 9,353 open cases
                                  identified 5 cases in which 5 employees used ITP or



                         12
                            The ACS is a computerized system that maintains balance due
                         accounts and return delinquency investigations.
                         13
                            The CIMIS is a computer database used to inventory, control, and
                         track the progress of criminal investigations.
                                                                                        Page 6
Fiscal Year 2004 Statutory Audit of Compliance With Legal Guidelines
 Prohibiting the Use of Illegal Tax Protester and Similar Designations

                                  similar designations when referring to specific
                                  taxpayers in their case narratives.
                              •   Examination Function Paper Case Files:14 A review
                                  of a judgmental sample of 557 taxpayers identified
                                  3 cases in which 3 employees used ITP or similar
                                  designations when referring to specific taxpayers in
                                  their paper case files.
                              •   Integrated Collection System: A review of
                                  approximately 1 million open ICS records identified
                                  177 cases in which 153 employees used ITP or
                                  similar designations when referring to specific
                                  taxpayers in their case narratives.
                              •   Taxpayer Advocate Management Information
                                  System (TAMIS):15 A review of 33,718 open
                                  TAMIS records identified 4 cases in which
                                  4 employees used ITP or similar designations when
                                  referring to specific taxpayers in their case
                                  narratives.
                         We identified 90 additional instances in various case
                         narratives where employees had used the term tax protester
                         or similar references. In general, employees had used these
                         terms to describe the type of action taken by the taxpayer
                         and had not specifically designated taxpayers as
                         “protesters.” While these actions are not prohibited by the
                         RRA 98 § 3707, we are concerned that these references
                         could become, or be considered, permanent labels that could
                         subsequently stigmatize taxpayers in future contacts with
                         the IRS.
                         Since the IRS has taken interim action to address these
                         issues and there is an outstanding question concerning the
                         legal interpretation of the RRA 98 § 3707, we believe that
                         no further recommendations are needed at this time.

                         14
                            The judgmental sample included examination cases from only the
                         SB/SE and Wage and Investment Divisions.
                         15
                            The TAMIS is an electronic database and case inventory control
                         system used by Taxpayer Advocate Service employees.




                                                                                       Page 7
            Fiscal Year 2004 Statutory Audit of Compliance With Legal Guidelines
             Prohibiting the Use of Illegal Tax Protester and Similar Designations

                                                                                                    Appendix I


                          Detailed Objective, Scope, and Methodology

The objective of this review was to determine if the Internal Revenue Service (IRS) complied
with the IRS Restructuring and Reform Act of 1998 (RRA 98)1 Section (§) 3707 and internal IRS
guidelines that prohibit referring to taxpayers as Illegal Tax Protesters (ITP) or any similar
designations. The Treasury Inspector General for Tax Administration (TIGTA) is required to
annually evaluate the IRS’ compliance with the prohibition against using ITP or any similar
designation.2 To complete this objective, we:

I.      Determined if the ITP coding on the IRS’ Master File3 was removed by reviewing all
        Accelerated Issuance Codes (Transaction Code 148) as of November 2003 for Business
        Master File (BMF)4 records and Individual Master File (IMF)5 records. We reviewed
        160,114 BMF records and 570,876 IMF records. We generally relied on the TIGTA’s
        Office of Information Technology for validation of the data provided to us. However, we
        did a limited validation of the data by researching a judgmental sample of 25 Taxpayer
        Identification Numbers (TIN)6 and 25 Employer Identification Numbers (EIN)7 on the
        Integrated Data Retrieval System (IDRS).8
        We also compared our historic computer extract of approximately 57,000 taxpayers
        designated as ITPs before the RRA 98 was enacted to our BMF and IMF records with an
        Accelerated Issuance Code (Transaction Code 148) to determine if any new common
        codes were being used to classify them as ITPs.
II.     Determined if the IRS’ Internal Revenue Manual (IRM) and Job Aids9 contained ITP or
        any similar designations by performing key word searches in January 2004 of the
        Servicewide Policy, Directive, and Electronic Research system; the Servicewide



1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  Internal Revenue Code § 7803(d)(1)(A)(v)(2000).
3
  The Master File is the IRS’ database that stores various types of taxpayer account information. This database
includes individual, business, and employee plans and exempt organizations data.
4
  The BMF is the IRS database that consists of Federal tax-related transactions and accounts for businesses. These
include employment taxes, income taxes on businesses, and excise taxes.
5
  The IMF is the IRS database that maintains transactions or records of individual tax accounts.
6
  A nine-digit number assigned to taxpayers for identification purposes. Depending upon the nature of the taxpayer,
the TIN is either an Employer Identification Number, a Social Security Number, or an Individual TIN.
7
  A unique nine-digit number used to identify a taxpayer’s business account.
8
  The IDRS is the IRS computer system capable of retrieving or updating stored information; it works in conjunction
with a taxpayer’s account records.
9
  The Job Aids are the IRS approved information for nationwide use to guide and assist employees to perform their
job. This is a new area not reviewed during our prior ITP audits.
                                                                                                          Page 8
            Fiscal Year 2004 Statutory Audit of Compliance With Legal Guidelines
             Prohibiting the Use of Illegal Tax Protester and Similar Designations

        Electronic Research Program (SERP);10 the IRS’ electronic publishing Intranet web site;
        the IRS’ public Internet web site; the CD-ROM; and paper IRMs. We specifically
        searched for corrections to the exceptions identified in our Fiscal Year 2003 report11 and
        determined if there were any new references.
III.    Determined if IRS publications still contained ITP or any similar designations by
        performing key word searches of the SERP, the IRS’ public Internet web site, and the
        IRS’ electronic publishing Intranet web site in October 2003.
IV.     Determined if employees were using ITP or any similar designations within taxpayer case
        narratives on the IRS’ Integrated Collection System (ICS)12 by securing and analyzing
        1,046,459 open ICS records as of September 2003 from a database with history action
        dates between October 2002 and September 2003. We did not perform a detailed
        validation of the ICS data because this information was provided directly from the IRS
        through the TIGTA Data Center Warehouse (DCW).13 However, we did a limited
        validation of the data accuracy by matching a judgmental sample of 25 TINs to the IDRS
        to determine if the accounts were in current collection status.
V.      Determined if employees were using ITP or any similar designations within taxpayer case
        narratives on the IRS’ Automated Collection System (ACS)14 by securing and analyzing
        all 2,537,738 records from the current open database as of the end of September 2003.
        We did not perform a detailed validation of the ACS data because this information was
        provided directly from the IRS through the TIGTA DCW. However, we did a limited
        validation of the data accuracy by matching a judgmental sample of 25 TINs to the IDRS
        to ensure the accounts were in current collection status.
VI.     Determined if employees were using ITP or any similar designations within taxpayer case
        narratives on the IRS’ Taxpayer Advocate Management Information System (TAMIS)15
        by analyzing the key word query results of 33,718 open TAMIS cases with activity
        between October 2002 and September 2003. The Taxpayer Advocate Service provided
        the data and validation information to us. The TIGTA DCW staff validated the TAMIS
        data received. In addition, we did a limited validation of data accuracy and completeness
        by looking up a judgmental sample of 25 cases by accessing TAMIS on-line.




10
   The SERP is an electronic researching tool containing many former paper research applications (e.g.,
Publications, IRM, Probe and Response Guide, etc.).
11
   Fiscal Year 2003 Statutory Audit of Compliance With Legal Guidelines Prohibiting the Use of Illegal Tax
Protester and Similar Designations (Reference Number 2003-40-098, dated April 2003).
12
   The ICS is a system used by Collection function employees to report taxpayer case time and activity.
13
   The DCW consists of data used by the TIGTA in audits, investigations, integrity projects, and administrative
requirements.
14
   The ACS is a computerized system that maintains balance due accounts and return delinquency investigations.
15
   The TAMIS is an electronic database and case inventory control system used by Taxpayer Advocate Service
employees.
                                                                                                          Page 9
            Fiscal Year 2004 Statutory Audit of Compliance With Legal Guidelines
             Prohibiting the Use of Illegal Tax Protester and Similar Designations

VII.     Determined if employees were using ITP or any similar designations within taxpayer case
         narratives on the IRS’ Appeals Centralized Database System (ACDS)16 by analyzing
         105,615 case records identified as received in the Appeals function between
         October 2002 and September 2003. The data were provided directly from the IRS
         through the TIGTA DCW. However, we did a limited validation of data accuracy and
         completeness by looking up a judgmental sample of 36 case records by accessing ACDS
         on-line.
VIII.    Determined if Examination function employees were using ITP or any similar
         designations within paper case files by reviewing a judgmental sample of 557 taxpayers
         previously identified as ITPs. The sample was selected from 3,666 closed tax return
         examinations that were closed between October 2002 and June 2003. We validated
         record counts for this time period against Examination reports provided by the IRS.
IX.      Determined if Criminal Investigation (CI) function employees were using ITP or any
         similar designations within taxpayer allegation text by analyzing 9,353 cases opened on
         the Criminal Investigation Management Information System (CIMIS)17 between
         October 2002 and August 2003. The data were provided directly from the IRS and
         validated by the TIGTA. Additionally, we did a limited validation of the data accuracy
         by matching a judgmental sample of 25 TINs to the IDRS to ensure the existence of
         criminal investigation activity.
         We also compared the historic computer extract of approximately 57,000 taxpayers
         designated as ITP before the RRA 98 was enacted to the 5,152 cases that the CI function
         closed between October 2002 and August 2003. We determined that none of the
         previously designated ITP taxpayers are in the CI function’s closed case files.
X.       Determined if the IMF and BMF taxpayers on the Taxpayer Information File (TIF)18 are
         coded as ITP by querying the Taxpayer Delinquency Investigation (TDI) Case Code field
         for the tax protester code “TXPR.” We reviewed 14,539,900 IMF and 10,123,467 BMF
         taxpayer accounts on the IDRS during the week of March 1, 2004. We generally relied
         on the TIGTA’s Office of Information Technology for validation of the data provided to
         us. However, we did a limited validation of the data by researching a judgmental sample
         of 15 EINs and 10 TINs on the IDRS.
         Determined if taxpayers on the ICS are coded as ITP by querying the TDI Case Code
         field for “TXPR.” We reviewed 1,507,175 ICS taxpayer records as of February 2004.
         We did not perform a detailed validation of the ICS data because this information was
         provided directly from the IRS through the TIGTA DCW.



16
   The ACDS is a computerized case control system used to control and track cases coming into and leaving
Appeals.
17
   The CIMIS is a computer database used to inventory, control, and track the progress of criminal investigations.
18
   The TIF provides tax account information for taxpayers selected for the IDRS.
                                                                                                            Page 10
        Fiscal Year 2004 Statutory Audit of Compliance With Legal Guidelines
         Prohibiting the Use of Illegal Tax Protester and Similar Designations

      We also compared our historic computer extract of approximately 57,000 taxpayers
      designated as ITPs before the RRA 98 was enacted to our records with a “TXPR” code to
      determine if any new common codes were being used to classify them as ITPs.
XI.   Consulted with the TIGTA’s Office of Chief Counsel on the correct application of the
      law.




                                                                                      Page 11
         Fiscal Year 2004 Statutory Audit of Compliance With Legal Guidelines
          Prohibiting the Use of Illegal Tax Protester and Similar Designations

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Mary V. Baker, Director
Bryce Kisler, Audit Manager
Julia Tai, Senior Auditor
Tracy Harper, Auditor
Jean Kao, Auditor
Craig Pelletier, Auditor




                                                                                         Page 12
         Fiscal Year 2004 Statutory Audit of Compliance With Legal Guidelines
          Prohibiting the Use of Illegal Tax Protester and Similar Designations

                                                                            Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Director, Communications & Liaison, Small Business/Self-Employed Division SE:S:MS:CL
Director, Compliance, Small Business/Self-Employed Division SE:S:C
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Office of Research, Analysis, and Statistics RAS
Director, Office of Servicewide Policy, Directives, and Electronic Research RAS:SPDER
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Agency-Wide Shared Services OS:A
Chief, Appeals AP
Chief Counsel CC
Chief, Criminal Investigation SE:CI
Chief Information Officer OS:CIO
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
   Chief, Customer Liaison, Small Business/Self-Employed Division SE:S:COM
   Commissioner, Tax Exempt and Government Entities Division SE:T
   GAO/TIGTA Liaison, Wage and Investment Division SE:W:S:PA
   GAO/TIGTA Liaison, Modernization & Information Technology Services
   OS:CIO:R:PM:PO




                                                                                  Page 13
            Fiscal Year 2004 Statutory Audit of Compliance With Legal Guidelines
             Prohibiting the Use of Illegal Tax Protester and Similar Designations

                                                                                                    Appendix IV


                                            Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions in this report and the recommended corrective actions from our Fiscal Year
2002 audit report1 will continue to have on tax administration. These benefits will be
incorporated into our Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; 306 taxpayers affected (see pages 2 and 5).
Methodology Used to Measure the Reported Benefit:
We reviewed the following:
•   From the Taxpayer Information File (TIF)2 - approximately 24.7 million taxpayer accounts as
    of the week of March 1, 2004, and identified 47 taxpayer accounts coded as tax protesters.
•   From the Automated Collection System (ACS)3 - approximately 2.5 million records from the
    current open database as of the end of September 2003, and identified 44 taxpayer case
    narratives that contained Illegal Tax Protester (ITP) or a similar designation.
•   From the Criminal Investigation Management Information System (CIMIS)4 - a total of
    9,353 cases opened between October 2002 and August 2003, and identified 5 taxpayer case
    narratives that contained ITP or a similar designation.
•   From Examination function paper case files - a total of 557 judgmentally selected taxpayers
    with tax return examinations closed between October 2002 and June 2003, and identified
    3 taxpayer case files that contained ITP or a similar designation.
•   From the Integrated Collection System (ICS)5 - approximately 1 million open records with
    history action dates between October 2002 and September 2003, and identified
    177 taxpayer case narratives that contained ITP or a similar designation. Additionally, from
    approximately 1.5 million open and archive taxpayer accounts on the ICS at month end
    February 2004, we identified 26 taxpayer accounts coded as tax protesters.




1
  Efforts Are Still Needed to Discourage the Use of Illegal Tax Protester and Similar Designations (Reference
Number 2002-40-162, dated September 2002).
2
  The TIF provides tax account information for taxpayers selected for the Integrated Data Retrieval System.
3
  The ACS is a computerized system that maintains balance due accounts and return delinquency investigations.
4
  The CIMIS is a computer database used to inventory, control, and track the progress of criminal investigations.
5
  The ICS is a system used by Collection function employees to report taxpayer case time and activity.
                                                                                                            Page 14
            Fiscal Year 2004 Statutory Audit of Compliance With Legal Guidelines
             Prohibiting the Use of Illegal Tax Protester and Similar Designations

•   From the Taxpayer Advocate Management Information System (TAMIS)6 - a total of
    33,718 open cases with activity between October 2002 and September 2003, and identified
    4 taxpayer case narratives that contained ITP or a similar designation.
Type and Value of Outcome Measure:
•   Reliability of Information – Actual; 103 Internal Revenue Manual (IRM) subsections from
    various sources affected and 3 Job Aids7 (see page 3).
Methodology Used to Measure the Reported Benefit:
In January 2004, we searched various versions of the IRM and the Job Aids available to Internal
Revenue Service (IRS) employees for ITP references. These were found on the Servicewide
Electronic Research Program (SERP);8 the IRS’ publishing web site; the IRS’ public Internet
web site; the CD-ROM; and on paper.




6
  The TAMIS is an electronic database and case inventory control system used by Taxpayer Advocate Service
employees.
7
  The Job Aids are the Internal Revenue Service approved information for nationwide use to guide and assist
employees to perform their job. This is a new area not reviewed during our prior ITP audits.
8
  The SERP is an electronic researching tool containing many former paper research applications (e.g. Publications,
IRM, Probe and Response Guide, etc.).




                                                                                                           Page 15
Fiscal Year 2004 Statutory Audit of Compliance With Legal Guidelines
 Prohibiting the Use of Illegal Tax Protester and Similar Designations

                                                                  Appendix VII


           Management’s Response to the Draft Report




                                                                         Page 19
Fiscal Year 2004 Statutory Audit of Compliance With Legal Guidelines
 Prohibiting the Use of Illegal Tax Protester and Similar Designations




                                                                         Page 20
Fiscal Year 2004 Statutory Audit of Compliance With Legal Guidelines
 Prohibiting the Use of Illegal Tax Protester and Similar Designations




                                                                         Page 21
Fiscal Year 2004 Statutory Audit of Compliance With Legal Guidelines
 Prohibiting the Use of Illegal Tax Protester and Similar Designations




                                                                         Page 22
